Audit
Report
      COMPILATION OF THE FY 2000 DOD AGENCY-WIDE
                FINANCIAL STATEMENTS



Report No. D-2001-181                  September 19, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ATB                   Adjusted Trial Balance
AGW                   Account Groupings Worksheet
CFO                   Chief Financial Officer
DFAS                  Defense Finance and Accounting Service
FACTS                 Federal Agencies’ Centralized Trial-Balance System
FMIP                  Financial Management Improvement Plan
OMB                   Office of Management and Budget
USD(C)                Under Secretary of Defense (Comptroller)
                        Office of the Inspector General, DoD
Report No. D-2001-181                                               September 19, 2001
   Project No. (D2001FI-0018.003)

                Compilation of the FY 2000 DoD Agency-Wide
                            Financial Statements

                                    Executive Summary

Introduction. This report is the fourth in a series of audit reports relating to the audit
of the FY 2000 DoD Agency-Wide Financial Statements. The first report discussed the
internal controls and compliance with laws and regulations for DoD. The second report
discussed issues regarding efforts for improving financial management systems in the
1999 and 2000 Financial Management Improvement Plans. The third report discussed
improvements to the Audited Financial Statements Module of the Defense Departmental
Reporting System. We performed this audit in response to the Chief Financial Officers
Act of 1990, as amended by the Federal Financial Management Act of 1994, which
requires that DoD provide audited financial statements to the Office of Management
and Budget.

The FY 2000 DoD Agency-Wide Financial Statements were compiled from the
financial statements of the DoD reporting entities: the Army, Navy, and Air Force
General Funds; the Army, Navy, and Air Force Working Capital Funds; the Military
Retirement Fund; the U.S. Army Corps of Engineers, Civil Works Program; and
financial data for the Other Defense Organizations-General Funds and Working Capital
Funds. In FY 2000, the DoD Components reported total assets of $616.7 billion, total
liabilities of $1.0 trillion, total net costs of operations of $347.5 billion, and total
budgetary resources of $656.1 billion.

Objectives. Our overall objective was to determine whether the FY 2000 DoD
Agency-Wide Financial Statements were prepared in accordance with Office of
Management and Budget Bulletin No. 97-01, “Form and Content of Agency Financial
Statements,” October 16, 1996, as amended, and generally accepted accounting
principles. As part of the objective, we determined whether the Defense Finance and
Accounting Service consistently and accurately compiled financial data received from
field organizations and other sources for the DoD Agency-Wide financial statements.
An additional objective was to identify any exceptions to the Department’s compliance
with U.S. Treasury Financial Manual and completion of the Account Groupings
Worksheet, and to identify any differences between the Summarized Federal Agencies’
Centralized Trial-Balance System I Data and the audited FY 2000 DoD Agency-Wide
Financial Statements. We also reviewed the management control program as it related
to the overall objective.

The Defense Finance and Accounting Service processed approximately $4.4 trillion in
department-level accounting entries to DoD Component financial data used to prepare
departmental reports and DoD financial statements for FY 2000. Of the $4.4 trillion in
department-level accounting entries, $2.8 trillion were supported with proper research,
reconciliation, and audit trails. However, department-level accounting entries of
$1.1 trillion were unsupported or improper. We did not review another $477.1 billion
in department-level accounting entries. The DoD Agency-Wide financial statements for
FY 2000 were subject to a high risk of material misstatement. The magnitude of
department-level accounting entries required to compile the DoD financial statements
for FY 2000 highlights the difficulties and problems that DoD encountered in
attempting to produce accurate and reliable financial information using existing systems
and processes (finding A).

DoD FY 2000 Federal Agencies’ Centralized Trial-Balance System I that electronically
documents the Department’s financial statement submissions to the Department of the
Treasury was incomplete and late. Specifically, DoD did not complete the worksheets
required by U.S. Treasury guidance. As a result, DoD missed 2 of 3 U.S. Treasury
deadlines and was 4 days late for the final submission. Further, we were unable to
verify the $137.5 billion in Commitments and Contingencies reported on the Federal
Agencies’ Centralized Trial-Balance System data to the published FY 2000 DoD
Agency-Wide Financial Statements, footnotes, and other supporting data. These
problems negatively impacted the process for preparing and auditing the FY 2000
Government-Wide Financial Statements (finding B).

Summary of Recommendations. Because we previously made recommendations to
improve the process for department-level accounting entries, we are not making
recommendations on that issue in this report. We recommend that the Under Secretary
of Defense (Comptroller) develop and execute specific reconciliation and reporting
requirements for the Federal Agencies’ Centralized Trial-Balance System I Account
Groupings Worksheet and Notes and incorporate those requirements in the DoD
Financial Management Regulation.

Management Comments. The Deputy Chief Financial Officer agreed that a Federal
Agencies’ Centralized Trial-Balance System I reconciliation checklist should be
developed and executed. The Deputy agreed to incorporate the reconciliation checklist
and Federal Agencies’ Centralized Trial-Balance System I key dates into the DoD
Financial Management Regulations. The Deputy recommended the establishment of a
collaborative workgroup consisting of staff from the Under Secretary of Defense
(Comptroller), the Defense Finance and Accounting Service, and the OIG, DoD, which
will develop the reconciliation checklist, and other necessary procedures needed to meet
the Federal Agencies’ Centralized Trial-Balance System I reconciliation and reporting
requirements within the established timeframes. See the Management Comments
section for the complete text of management comments.

Audit Response. The Under Secretary of Defense (Comptroller) comments are
responsive. However, the U.S. Treasury Financial Manual segregates the
responsibilities of Federal Agencies’ Centralized Trial-Balance System I process. The
Federal Agencies’ Centralized Trial-Balance System I reconciliation and reporting
process is the responsibility of the Chief Financial Officer, not the responsibility of the
OIG, DoD. While the OIG, DoD, is willing to assist in the reconciliation process, the
Under Secretary of Defense (Comptroller) is accountable for completing and
reconciling the Account Groupings Worksheet and reconciling the Federal Agencies’
Centralized Trial-Balance System I Notes. The OIG, DoD, is responsible for verifying
the DoD Federal Agencies’ Centralized Trial-Balance System I final submission.




                                             ii
Table of Contents

Executive Summary                                                          i


Introduction
     Background                                                            1
     Objectives                                                            2

Findings
     A. Department-Level Accounting Entries                                3
     B. Federal Agencies’ Centralized Trial-Balance System I Submission   12

Appendixes
     A. Audit Process
         Scope                                                            19
         Methodology                                                      20
         Management Control Program Review                                20
         Prior Coverage                                                   21
     B. Report Distribution                                               22


Management Comments
     Under Secretary of Defense (Comptroller)                             25
Background
    This report is the fourth in a series of reports related to the DoD Agency-Wide
    financial statements for FY 2000. The first report discussed the internal
    controls and compliance with laws and regulations for DoD. The second report
    discussed issues regarding efforts for improving financial management systems
    in the 1999 and 2000 Financial Management Improvement Plans. The third
    report discussed improvements to the Defense Departmental Reporting System.
    This report discusses the compilation process for the FY 2000 DoD
    Agency-Wide Financial Statements.

    Reporting Requirements. Public Law 101-576, the Chief Financial Officers
    Act of 1990, November 15, 1990, as amended by Public Law 103-356, the
    Federal Financial Management Act of 1994, October 13, 1994, requires DoD to
    prepare annual audited financial statements. Office of Management and
    Budget (OMB) Bulletin No. 01-02, “Audit Requirements for Federal Financial
    Statements,” dated October 16, 2000, as amended, establishes the minimum
    requirements for audits of Federal financial statements.

    Accounting Functions and Responsibilities. The Under Secretary of Defense
    (Comptroller) (USD[C]), as the Chief Financial Officer (CFO), is responsible
    for overseeing all financial management activities related to the programs and
    operations of DoD. The Defense Finance and Accounting Service (DFAS)
    performs accounting functions and prepares financial statements for DoD.
    DFAS operates under the control and direction of the USD(C). DFAS is
    responsible for entering information from DoD entities into finance and
    accounting systems, and ensuring the continued integrity of the information
    entered. The DoD reporting entities are responsible for providing accurate
    financial information to DFAS through feeder systems and other processes.

    For FY 2000, DFAS was to prepare financial statements for nine OMB
    reporting entities: DoD Agency-Wide; Army, Navy, and Air Force General
    Funds; Army, Navy, and Air Force Working Capital Funds; Army Corps of
    Engineers, Civil Works Program; and the Military Retirement Fund. In
    addition, trial balance data were to be prepared for Other Defense Organizations
    for FY 2000.

    DoD Agency-Wide Financial Statements. The DoD Agency-Wide financial
    statements consist of five parts: overview, principal statements, required
    supplementary stewardship information, required supplemental information, and
    other accompanying information. The principal statements for the reporting
    entities consist of six financial statements and related footnotes. The statements
    are the Balance Sheet, the Statement of Net Cost, the Statement of Changes in
    Net Position, the Statement of Budgetary Resources, the Statement of
    Financing, and the Statement of Custodial Activity.

    FY 2000 DoD Agency-Wide Financial Statements. In FY 2000, the DoD
    Components reported total assets of $616.7 billion, total liabilities of
    $1.0 trillion, total net costs of operations of $347.5 billion, and total


                                        1
     budgetary resources of $656.1 billion. On February 15, 2001, we issued a
     disclaimer of opinion on the FY 2000 DoD Agency-Wide Financial
     Statements.

     Accounting Policy. The DoD Agency-Wide financial statements for FY 2000
     were to be prepared in accordance with OMB Bulletin No. 97-01, “Form and
     Content of Agency Financial Statements,” October 16, 1996, as amended.
     Footnote 1 to the financial statements discusses the significant accounting
     policies followed in preparing the financial statements.

     Ongoing Corrective Actions. DoD acknowledged that financial management
     system deficiencies prevent it from producing auditable financial data. In June
     1998, DoD developed ongoing corrective actions, commonly referred to as
     implementation strategies, to improve other aspects of its financial management
     and to accelerate timelines for achieving “clean” opinions on the Department’s
     annual financial statements. In an effort to integrate its financial management
     reform initiatives, USD(C) intends to incorporate these implementation
     strategies into the annual Financial Management Improvement Plan (FMIP).
     The FMIP will be used as a management tool to monitor its ongoing corrective
     actions.

     Federal Agencies’ Centralized Trial-Balance System I. The Federal
     Agencies’ Centralized Trial-Balance System (FACTS) I is a system that is
     administered and maintained by the Department of the Treasury Financial
     Management Service to facilitate the preparation and consolidation of the
     Financial Report of the United States Government. As the preparer of the
     audited financial statements for the DoD reporting entities, DFAS and the
     United States Army Corps of Engineers Finance Center are required to
     electronically transmit the adjusted trial balances (ATB) and footnotes to the
     Department of the Treasury via the FACTS I.

Objectives
     Our overall objective was to determine whether the DoD Agency-Wide financial
     statements for FY 2000 were prepared in accordance with OMB Bulletin
     No. 97-01, and generally accepted accounting principles. As part of the
     objective, we determined whether DFAS consistently and accurately compiled
     financial data received from field organizations and other sources for the DoD
     Agency-Wide financial statements. An additional objective was to identify any
     exceptions to the Department’s compliance with U.S. Treasury Financial
     Manual, volume 1, part 2, chapter 4000, “Federal Agencies’ Centralized Trial-
     Balance System,” and completion of the Account Groupings Worksheet (AGW),
     and to identify any differences between the summarized FACTS I data and the
     audited FY 2000 DoD Agency-Wide Financial Statements. We also reviewed
     the management control program as it related to the overall objective. See
     Appendix A for a complete discussion of the scope, methodology, and prior
     coverage.




                                          2
           A. Department-Level Accounting Entries
           During FY 2000, DFAS processed approximately $4.4 trillion in
           department-level accounting entries to DoD Component financial data
           used to prepare departmental reports and the DoD Agency-Wide
           financial statements for FY 2000. Of the $4.4 trillion, $2.8 trillion
           were supported, $1.1 trillion (25 percent) were unsupported or
           improper, and $0.5 trillion were not reviewed. Although some
           department-level accounting entries will always be necessary through
           the normal course of accounting operations and the complexity of
           DoD business practices, there are major concerns about the
           accounting entries because:

                  •   DFAS had to process 729 department-level accounting
                      entries, valued at $1.2 trillion, to add new data. Many entries
                      were made because DoD did not have adequate integrated
                      systems for compiling accurate and reliable financial data;

                  •   DFAS processed 974 department-level accounting entries,
                      valued at $588 billion, to correct errors; and

                  •   DFAS processed 5,653 accounting entries, valued at
                      $1.1 trillion, for which DoD did not perform proper research
                      and reconciliation, maintain adequate documentation and audit
                      trails, or follow accounting principles.

           As a result, the DoD financial statements for FY 2000 were subject to a
           high risk of material misstatement. The magnitude of department-level
           accounting entries required for FY 2000 highlights the significant
           problems that DoD encountered in attempting to produce accurate and
           reliable financial information using existing systems and processes.

Guidance
    Section 3512, Title 31, United States Code. The requirements of the
    Federal Managers’ Financial Integrity Act of 1982 for an agency’s internal
    accounting and administrative controls were incorporated in section 3512,
    title 31, United States Code (31 U.S.C. 3512). That section requires DoD to
    establish and to implement internal accounting and administrative controls to
    provide reasonable assurance that revenues and expenditures applicable to
    agency operations are recorded and accounted for properly so that accounts
    and reliable financial and statistical reports may be prepared and
    accountability of the assets may be maintained. In addition, 31 U.S.C. 3512
    requires DoD to assess the effectiveness of the internal accounting and
    administrative controls established and implemented.

    OMB Circular No. A-123. OMB Circular No. A-123, “Management
    Accountability and Control,” June 21, 1995, provides guidance to Federal


                                       3
    managers on improving the accountability and effectiveness of Federal
    programs and operations by establishing, assessing, correcting, and
    reporting on management controls. OMB Circular No. A-123 requires
    Federal managers to promptly record, properly classify, and account for
    transactions to prepare timely and reliable accounts and reports.

    General Accounting Office “Standards for Internal Control in the Federal
    Government.” The General Accounting Office publication, “Standards for
    Internal Control in the Federal Government,” November 1999, provides an
    overall framework for internal control. The standards state the following:
               Control activities occur at all levels and functions of the entity. They
               include a wide range of diverse activities such as approvals,
               authorizations, verifications, reconciliations, performance reviews,
               maintenance of security, and the creation of related records which
               provide evidence of execution of these activities as well as appropriate
               documentation.

    In addition, the standards require clear documentation of all transactions and
    other significant events, and the documentation should be readily available for
    examination.

    DoD Guidance. DoD has issued guidance for the proper execution of
    department-level accounting entries. The DoD Financial Management
    Regulation, DoD Regulation 7000.14-R, volume 6A, “Reporting Policy and
    Procedures,” January 2001, requires documentation and audit trails necessary to
    support department-level accounting entries.

    DFAS Guidance. “Journal Voucher Guidance,” August 2, 2000, issued by
    DFAS, established procedures on the use of journal vouchers within DoD and
    was retroactive to the beginning of FY 2000. This guidance discusses the types
    of journal vouchers, when and how to use each type, the appropriate support
    that should accompany each journal voucher, and the approval necessary to
    ensure the proper entry of journal vouchers.

Department-Level Accounting Entries
    Department-Level Accounting Entries for FY 2000. DFAS processed
    approximately $4.4 trillion in department-level accounting entries to the DoD
    Components’ financial data used to prepare departmental reports and the DoD
    Agency-Wide financial statements for FY 2000. The department-level
    accounting entries were processed to force financial data to agree with various
    data sources, to correct errors, and to add new data. Of the $4.4 trillion, proper
    research, reconciliations, and adequate audit trails supported $2.8 trillion of the
    department-level accounting entries. However, accounting entries of
    $1.1 trillion were made to force financial data to agree with various sources
    without adequate research and reconciliation, were made to force buyer and
    seller data to agree in preparation for eliminating entries, did not contain
    adequate audit trails and documentation, or did not follow accounting principles.
    Because of time constraints, we identified but did not review $477.1 billion of


                                             4
       accounting entries and, therefore, we did not determine whether they were
       adequately supported. Table 1 identifies the results of our review of
       department-level accounting entries made to the DoD Components’ financial
       data.




                   Table 1. Department-Level Accounting Entries for FY 2000
            Department-Level
                                       (dollars in billions)
                             Supported Unsupported Improper
                                                                 Not
                                                                            Total
                                                                              Reviewed
        Accounting Entries       (entries)       (entries)       (entries)    (entries)      (entries)
                                $ 103.4         $ 360.4             $ 1.1     $    0         $ 464.9
        Army General Fund        (219)           (236)               (4)          (0)          (459)
        Army Working               168.2            36.2               7.8         0             212.2
         Capital Fund             (174)            (72)               (5)         (0)           (251)
                                   453.2            81.7              79.9       397.4         1,012.2
        Navy General Fund       (1,103)            (28)           (3,342)     (9,340)        (13,813)
        Navy Working               885.9            48.2              10.7         2.5           947.3
         Capital Fund             (432)           (165)              (61)       (316)           (974)
        Air Force General           85.6           317.4               3.0         0             406.0
         Fund                     (507)         (1,067)              (43)         (0)         (1,617)
        Air Force Working           68.7            32.0               4.3         0             105.0
         Capital Fund             (388)           (152)               (8)         (0)           (548)
                                   334.3**         150.5**             0.4        61.6           546.8**
        ODO* General Fund          (81)**         (376)**            (23)       (758)         (1,238)
        ODO Working                 15.2            10.0               0           0              25.2
         Capital Fund             (203)            (66)               (0)         (0)***        (269)***
        U.S. Army, Corps            15.0               0.3             0          15.6            30.9
         of Engineers             (117)               (5)             (0)     (1,906)         (2,028)
        Military Retirement        687.6               0               0            0            687.6
         Fund                       (1)               (0)             (0)          (0)            (1)
                                $2,817.1**     $1,036.7**           $107.2     $477.1         $4,438.1**
             Total              (3,225)**      (2,167)**          (3,486)    (12,320)        (21,198)

        *
         Other Defense Organizations.
        **
          These data have been refined to reflect an increase of $8.7 billion in supported, a decrease of
           $77.5 billion in unsupported, and a decrease of $68.8 billion in total department-level
           accounting entries since the issuance of Inspector General, DoD, Report No. D-2001-070,
           “Internal Controls and Compliance with Laws and Regulations for the DoD Agency-Wide
           Financial Statements for FY 2000,” February 28, 2001.
        ***
            The scope of accounting entries reviewed for the ODO Working Capital Fund (WCF) was
           limited to entries processed by DFAS Indianapolis ($2.5 billion) and DFAS Denver
           ($22.7 billion). Therefore, the total amount of accounting entries to the ODO WCF financial
           statements is unknown.

The primary reason that the number and value of department-level accounting entries
for the Navy General Fund is larger than for other reporting entities is due to variations


                                                  5
in business processes. In addition, some of the department-level accounting entries
included in the “Improper” category were made as a result of system interface
problems and other related deficiencies in accounting systems.

Comparison of Department-Level Accounting for FY 1999 and FY 2000. Despite
the large volume of department-level accounting entries made to the DoD Component
financial data during FY 1999 and FY 2000, progress had been made supporting the
entries. The following chart shows the comparison of supported, unsupported and
improper, and unreviewed department-level accounting entries for FY 1999 and
FY 2000.


                 Accounting Entries for FY 1999 and FY 2000
                             (dollars in trillions)

      $8.0                                         Unreviewed
                                                   Unsupported and Improper
      $7.0                $1.8                     Supported
      $6.0
      $5.0                $2.3
      $4.0                                           $0.5
                                                     $1.1
      $3.0
      $2.0                $3.5
                                                      $2.8
      $1.0
       $-
                       FY 1999                     FY 2000


The department-level accounting entries processed to compile the DoD Components
financial data (used to prepare departmental reports and the DoD Agency-Wide
financial statements for FY 2000) decreased by $3.2 trillion, from at least $7.6 trillion
in FY 1999 to at least $4.4 trillion. The department-level accounting entries supported
by proper research, reconciliation, and adequate audit trails decreased by $700 billion
from $3.5 trillion in FY 1999 to $2.8 trillion in FY 2000. The $1.1 trillion of
unsupported and improper department-level accounting entries for FY 2000 decreased
$1.2 trillion from $2.3 trillion in FY 1999. The major reason for the decrease in
unsupported and improper entries was that in FY 1999, DFAS Cleveland made one
large entry of $800 billion that did not follow accounting principles. DFAS Cleveland
did not make any accounting entries of this magnitude for FY 2000. We did not review
$1.8 trillion for accounting entries for FY 1999 and $0.5 trillion for FY 2000.




                                            6
Supported Department-Level Accounting Entries
    DFAS processed 3,225 department-level accounting entries, valued at
    $2.8 trillion, for which proper research and reconciliations were performed
    and adequate audit trails existed. The department-level accounting entries
    were made to do the following:

           • enter new data into the accounting records,
           • correct errors, and
           • meet the requirements of accounting principles and other guidance.

    Although we determined that proper reconciliations were performed and
    adequate audit trails existed to support $2.8 trillion of the accounting entries, it
    is important to note that many of these were corrections of errors or data
    provided to DFAS from outside sources. For the supported accounting entries
    prepared using data from outside sources, DFAS correctly prepared a journal
    voucher for the entry and attached documentation from the outside source
    supporting the numbers on the voucher. However, due to the unreliable
    processes used by the outside sources to develop the numbers, such as estimates
    for environmental liabilities, the numbers from the outside sources could not be
    verified through audit.

    Data Entries. DFAS processed 729 department-level accounting entries,
    valued at approximately $1.2 trillion, to add new data into the accounting
    records. DFAS was required to process department-level accounting entries,
    such as actuarial estimates, that could not be generated through transaction-
    driven integrated accounting systems. The data came from outside sources over
    which DFAS had little or no direct influence. For example, DFAS processed a
    department-level accounting entry for $687.6 billion to record the liability for
    military retirement pensions. The department-level accounting entry was
    properly supported and the amount was accurate. Although some department-
    level accounting entries were properly supported, due to the unreliable processes
    used by the outside sources to develop the numbers, the numbers from the
    outside sources could not be verified through audit. For example, DFAS
    processed department-level accounting entries, valued at $63.2 billion, to record
    environmental liabilities based on documentation that the Military Departments
    provided. However, because of insufficient controls that DoD used to develop
    the estimates, auditors could not verify the accuracy of the reported amount.

    DFAS also processed department-level accounting entries to add new data into
    the accounting records that normally should be generated through a transaction-
    driven integrated financial management system. Instead, DFAS was forced to
    prepare data calls for field organizations to obtain amounts to be reported on the
    financial statements for line items such as inventory and property, plant, and
    equipment because the current financial management systems were not capable of
    generating that information. The information should be available to DoD
    managers throughout the year, not just reported through data calls conducted
    once a year. Because of demonstrated results of DoD Year 2000 initiatives, in


                                         7
    November 1999, we recommended that DoD develop an approach similar to the
    Year 2000 approach to identify and bring those systems up to CFO compliance.
    As approved by the Defense Management Council, the USD(C) developed a
    financial and feeder systems compliance process dated January 5, 2001, to
    oversee and monitor the DoD Components’ efforts to develop and modify critical
    finance, accounting, and feeder systems to comply with applicable requirements.
    The process is patterned after the successful DoD Year 2000 conversion process
    and consists of five phases with defined exit criteria. We assessed the adequacy
    of DoD long-term plans in Inspector General, DoD Report No. D-2001-085,
    “The 2000 DoD Financial Management Improvement Plan,” March 19, 2001.
    Therefore, we are not making recommendations in this report regarding DoD
    plans to correct financial management systems deficiencies.

    Corrections of Errors. DFAS processed 974 department-level accounting
    entries, valued at $588 billion, to correct accounting errors. Error corrections
    decreased in FY 2000 by $14.7 billion from $602.7 billion in FY 1999.
    Although support existed for these adjustments, DoD can improve the efficiency
    of the financial statement compilation process and help ensure the integrity of
    the financial data by improving the accuracy of accounting entries and
    minimizing the need for error corrections.

    Accounting Entries Required by Guidance. DFAS processed
    1,522 department-level accounting entries, valued at $989.5 billion, to record
    entries required by guidance. They included department-level accounting entries
    that were required by DoD Regulation 7000.14-R and were properly supported.
    For example, DoD Regulation 7000.14-R, volume 11, chapter 55, requires that
    DoD inventory be valued at the latest acquisition cost for financial statement
    presentation. However, to record inventory on the financial statements at latest
    acquisition cost, DoD organizations that maintain inventory values at the selling
    price adjust the inventory values to latest acquisition cost by removing operating
    cost recovery amounts.

Unsupported or Improper Department-Level Accounting
  Entries
    DFAS processed 5,653 unsupported or improper department-level accounting
    entries, valued at about $1.1 trillion. The department-level accounting entries
    were unsupported or improper because of the following:

           • they were made to force general ledger data to agree with data from
               other sources without adequate research and reconciliation;

           • they were made to force buyer and seller data to agree in preparation
               for eliminating entries; and

           • they did not follow accounting principles, did not contain adequate
               supporting documentation, or did not contain adequate audit trails.



                                        8
Accounting Entries to Force Financial Data to Agree with Various Sources.
DFAS processed department-level accounting entries, valued at $421.8 billion,
to force financial data from various sources to agree without performing the
proper research and reconciliations. DFAS headquarters guidance requires that,
when accounting personnel process accounting entries made to force financial
data from various sources to agree, they must document the reason for the
discrepancy and explain how they determined the proper source to be correct.
For example, DFAS Indianapolis identified $262.6 billion of differences
between various financial data sources used to prepare the Army General Fund
financial statements for FY 2000. Instead of conducting the proper research to
identify the correct amount to be reported, DFAS Indianapolis processed
72 department-level accounting entries to force the various amounts to agree
without performing the proper reconciliations. Without the proper research and
reconciliation, management’s ability to support the financial data is impaired.

Accounting Entries to Force Buyer and Seller Data to Agree. The DoD
guidance did not require adequate support for intragovernmental eliminations.
The guidance provided instructions to adjust buyer-side data to agree with
seller-side data, without conducting proper research to reconcile the
difference. For FY 2000, DoD processed $135.5 billion in unsupported
department-level accounting entries to adjust intragovernmental accounts to
ensure sufficient balances to cover the amounts needed for elimination.

For FY 2000 reporting, DoD used information from the DoD entity making
sales or providing services (“seller-side”) to another DoD entity, or to another
Federal agency, that is the recipient and purchaser of those goods or services
(“buyer-side”) as the basis for reporting intragovernmental eliminations. DoD
presumed that the amounts of intragovernmental accounts receivable, revenue,
and advances from others (unearned revenue) reported by the seller were more
accurate, and that the corresponding amounts reported by the buyer for
intragovernmental accounts payable, expenses, advances, and assets must be
adjusted to match the seller records. For example, DFAS processed
department-level accounting entries of $17.4 billion to the Air Force General
Fund, adjusting the amounts in the Air Force General Fund to the seller-side
data without any research or reconciliation.

DoD accounting systems do not capture trading partner data (data on
transactions between DoD and other Federal entities) at the transaction level in a
manner that facilitates trading partner aggregations. Therefore, DoD was
unable to reconcile intragovernmental revenue balances with its trading partners.
As a result, the DoD Agency-Wide financial statements were subject to risk of
material misstatement. The inability of DoD to properly account for and
disclose intragovernmental transactions and report trading partner eliminations is
a major impediment in obtaining a favorable audit opinion on its financial
statements.

Other Unsupported or Improper Department-Level Accounting Entries.
DFAS processed 4,775 department-level accounting entries, valued at
$586.6 billion, that did not follow accounting principles, did not contain
adequate supporting documentation, or did not contain adequate audit trails.


                                    9
    For example, DFAS Cleveland processed $10.7 billion in accounting entries
    for which the debits did not equal the credits. DFAS Cleveland personnel
    stated that these department-level accounting entries were necessary due to
    system interface problems.

Ongoing Corrective Actions
    In June 1998, DoD established an initiative to develop and implement
    corrective actions to improve the financial management of its acquisition,
    logistics, medical and personnel processes and systems in an attempt to
    accelerate timelines for achieving “clean” opinions on the Department’s
    annual financial statements. The initiative was referred to as
    “Implementation Strategies.” Thirteen implementation strategies were
    developed and are in various stages of completion. The Department now
    intends to incorporate and monitor these corrective actions through the
    annual Financial Management Improvement Plan (FMIP).

    Inspector General, DoD, Report No. D-2000-179. In Inspector General,
    DoD, Report No. D-2000-179, “Department-Level Accounting Entries for
    FY 1999,” August 18, 2000, we recommended that DoD needed to develop
    an additional implementation strategy to eliminate unsupported department-
    level accounting entries used to compile the DoD Component and DoD
    Agency-Wide financial statements. The Deputy CFO responded to the
    report by drafting an implementation strategy that addressed the unsupported
    accounting entries. Although the Department has issued additional
    accounting guidance on controls over year-end processes, it has yet to issue
    or finalize this implementation strategy. Therefore, the recommendation
    previously made relating to department-level accounting entries is still valid.
    We will follow up with management to ensure that the corrective action is
    taken and incorporated into the FMIP.

Summary
    DoD will always make some department-level accounting entries to reflect
    needed adjustments to the accounting data. However, DoD made many of the
    accounting entries to add new data into the accounting records because DoD
    lacked integrated financial management systems that meet Federal financial
    management system requirements and accounting principles. DoD
    acknowledged that deficiencies exist and developed long-term plans to correct
    critical financial management systems.

    Although DFAS adequately supported $2.8 trillion of accounting entries,
    many were prepared using data from outside sources. For the supported
    accounting entries prepared using data from outside sources, DFAS correctly
    prepared a journal voucher for the entry and attached documentation from the
    outside source supporting the numbers on the voucher. However, due to the
    unreliable processes used by the outside sources to develop the numbers, such
    as estimates for environmental liabilities, the numbers from the outside


                                        10
sources could not be verified through audit. and $588 billion in accounting
entries were made to correct errors. In addition to its long-term system
correction plans, DoD should focus efforts on improving the accuracy of
accounting entries made and minimizing error corrections.

DoD did not perform proper research and reconciliations, did not follow
accounting principles in making accounting entries, and did not maintain
adequate documentation and audit trails for $1.1 trillion of department-level
accounting entries. The accounting entries indicate potential problems in DoD
financial management systems and processes. Until compliant financial
management systems are in place, DoD could improve the accuracy of its
financial data by following accounting principles and including the proper
support for any accounting entries made to the accounting records.

As a result of processing $1.1 trillion of unsupported or improper
department-level accounting entries, the FY 2000 DoD Agency-Wide
Financial Statements were subject to a high risk of material misstatement.
The lack of research, reconciliation, and audit trails impaired the auditors’
ability to validate the department-level accounting entries. The magnitude of
department-level accounting entries required to compile the DoD financial
statements highlights the significant problems that DoD had in producing
accurate and reliable financial statements with existing systems and processes.




                                   11
           B. Federal Agencies’ Centralized Trial-
              Balance System I Submission
           The DoD FY 2000 FACTS I submission to the Department of the
           Treasury was incomplete and late. Specifically, DoD did not complete
           and submit the Account Groupings Worksheet (AGW) as required by
           U.S. Treasury guidance by March 5, 2001. The FACTS I submission
           was incomplete and late because DoD did not establish effective control
           procedures to ensure full compliance with the U.S. Treasury FACTS I
           reporting requirements. Specifically:

                     •   DoD had not established a mechanism to reconcile
                         U.S. Treasury prepared footnotes with DoD Agency-Wide
                         financial statements, footnotes, and other supporting data;
                         and

                     •   DoD did not perform reconciliations between the FACTS I
                         data and the amounts from DoD Agency-Wide financial
                         statements in a timely manner.

           As a result, DoD missed 2 of the 3 U.S. Treasury reporting timelines,
           missing the final submission by 4 days. Further, DoD was unable to
           reconcile, and we were not able to verify, the $137.5 billion of
           Commitments and Contingencies in FACTS I to the published FY 2000
           DoD Agency-Wide Financial Statements, footnotes and other supporting
           data. Although only 4 days late, the DoD delays in submitting FACTS I
           data negatively impacted the ability of the Department of the Treasury to
           prepare and the General Accounting Office to audit the FY 2000
           Government-Wide Financial Statements.

Reporting Requirements
    The Federal Financial Management Act of 1994, Public Law 103-356
    (31 U.S.C. 331(e)(1)), requires the Secretary of the Treasury to annually
    prepare and submit to the President and the Congress audited financial
    statements for the preceding fiscal year. These audited financial statements are
    the Financial Report of the United States Government and must cover all
    accounts and associated activities of the executive branch of the Federal
    Government. The Budget and Accounting Procedures Act of 1950 (31 U.S.C.
    3513(a)) requires each executive agency to furnish financial and operational
    information as the Secretary of the Treasury stipulates. The U.S. Treasury
    Financial Manual identifies the reporting requirements for the agencies.




                                       12
FACTS I Submission
     U.S. Treasury Financial Manual. U.S. Treasury Financial Manual, volume 1,
     part 2, chapter 4000, “Federal Agencies’ Centralized Trial-Balance System
     (FACTS I),” August 14, 2000, describes the U.S. Treasury requirements for the
     electronically transmitted preclosing adjusted trial balances, the FACTS I Notes,
     and the AGW process. DoD missed 2 of its 3 U.S. Treasury reporting
     timelines, missing the final submission by 4 days. Table 2 provides the
     FY 2000 required dates for the FACTS I reporting process.

                   Table 2. FY 2000 FACTS I Reporting & Submission Process

              Due Date    FACTS I Reporting Requirement                         Date Completed
                        DoD ATB and FACTS I Notes due to
      February 1, 2001 Treasury.                                              February 1, 20011
      February 8, 2001 Treasury preliminary AGW to DoD.                       February 10, 2001
      February 23, 2001 DoD adjustments to FACTS I data.                      March 8, 2001
      February 26, 2001 Treasury final AGW to DoD.                            February 26, 20012
                        DoD completed AGW and explanation
                        for the differences to Treasury,
      March 5, 2001     General Accounting Office, and Office                 March 9, 20013
                        of Management and Budget.
                        Inspector General, DoD, delivered the
                        agreed-upon procedures report to
      March 7, 2001     Treasury, General Accounting Office,                  March 13, 2001
                        and Office of Management and Budget.
      1
          The DoD ATB data is provided to the Department of the Treasury by the United States Army
          Corps of Engineers Finance Center and by multiple DFAS locations. A significant portion of
          the DoD ATB data was provided to the Department of the Treasury by February 1, 2001.
      2
          The Department of the Treasury provided DoD with the final AGW on February 26, 2001.
          Due to DoD adjustments to the FACTS I data the Department of the Treasury provided
          revised final AGWs to DoD on March 8 and on March 9, 2001.
      3
          The DoD completed AGW submitted to the Department of the Treasury, the General Accounting
          Office, and the Office of Management and Budget on March 9, 2001, did not explain any
          differences identified. On March 13, 2001, DoD provided additional information on the
          differences subsequent to the Inspector General, DoD, issuing its agreed-upon procedures
          memorandum.

     The Secretary of the Treasury is required to annually prepare and submit the
     Financial Report of the United States Government by March 31. If a FACTS I
     reporting requirement is not accomplished by the required date, it negatively
     impacts the process for subsequent reporting requirements and ultimately could
     delay the issuance of the Financial Report of the United States Government.

            Adjusted Trial Balances. The ATB is a list of standard general ledger
     accounts with preclosing adjusted balances prepared at year’s end. The ATB data
     is consolidated and used to prepare the Financial Report of the United States
     Government. DoD is required to electronically transmit the preclosing ATBs using


                                                13
    standard general ledger accounts with balances. DoD provided the preclosing
    ATBs for the period ending September 30, 2000, by February 1, 2001.

            FACTS I Notes Report. The FACTS I Notes are a narrative of additional
    textual information and detailed standard general ledger account balance
    information contained in the agencies’ financial statements. DoD was required to
    complete and transmit all applicable notes to the Department of the Treasury by
    February 1, 2001. DoD was required to report at the business line level and to
    ensure that the standard general ledger account balances on the FACTS I Note
    report agreed with the standard general ledger account balances on the ATBs.
    DoD provided the majority of its FACTS I Notes data by the deadline.

           Account Groupings Worksheet. The AGW is a tool used by the
    Department of the Treasury to ensure that the agencies’ consolidated FACTS I
    ATB data and FACTS I Notes agree with the agencies’ audited financial
    statements. The AGW contains:
                  •   Balance Sheet,
                  •   Statement of Changes of Net Position,
                  •   Statement of Net Cost,
                  •   Schedule of Split U.S. Government Standard General Ledger
                      Accounts, and
                  •   Schedule of Differences between ATB and FACTS I Notes
                      data.
            The Department of the Treasury and DoD each populate the AGW.
    The Department of the Treasury completes the FACTS I ATB data and
    FACTS I Notes data portion and DoD completes the audited financial statement
    data portion. DoD is also required to compare and explain any differences
    between the two. The Department of the Treasury provides DoD 15 days
    (February 8 to February 23) to adjust the FACTS I ATB data and FACTS I
    Notes data before providing a final AGW for completion. DoD has an
    additional 7 days (February 26 to March 5) to complete its final AGW before
    submitting it to the Department of the Treasury by March 5. The Inspector
    General, DoD, is required to verify the Department’s final AGW and
    identify any exceptions not identified. DoD did not reconcile its FACTS I
    ATB data and FACTS I Notes data to the DoD audited financial statements
    before providing its final AGW to the Inspector General, DoD, for verification.
    DoD provided its final AGW to the Department of the Treasury on March 9,
    2001.

Completed Account Groupings Worksheet
    DoD did not complete the AGW as required by the U.S. Treasury Financial
    Manual. The U.S. Treasury Financial Manual requires that DoD provide
    the completed AGW to the Department of the Treasury, the General
    Accounting Office, and the OMB by March 5, 2001. DoD was one of the


                                       14
    last to submit its final AGW to these agencies. DoD provided its final AGW
    on March 9, 2001. In addition, the final AGW did not have all of the
    required CFO Procedures completed. The U.S. Treasury Financial Manual
    requires the CFO to compare the amounts for each AGW line item on the
    DoD financial statement to the corresponding amounts from the FACTS I
    ATB. Any differences are to be identified and the reasons for the
    differences are to be described. Although DoD was aware of a difference on
    the AGW Statement of Net Position, the reason for the difference was not
    disclosed.

    The U.S. Treasury Financial Manual also requires the CFO to compare the
    data on the FACTS I Notes report to footnotes or other disclosures in the
    DoD financial statements, or to other supporting data. Any differences are to
    be identified and described. Although DoD was aware of differences
    between the FACTS I Notes report and DoD Agency-Wide Financial
    Statements, footnotes, and other supporting data, these differences were also
    not disclosed. DoD needs to disclose all differences and include the
    description of the differences as required by U.S. Treasury guidance.

FACTS I Footnote Reconciliation
    DFAS had not completed the AGW because DoD had not established a process
    to reconcile U.S. Treasury prepared footnotes with DoD Agency-Wide
    financial statements, footnotes, and other supporting data. The format
    requirements of the FACTS I Notes contained in the U.S. Treasury Financial
    Manual are different from the DoD Agency-Wide financial statement footnote
    requirements contained in OMB Bulletin No. 97-01. The different reporting
    requirements resulted in the FACTS I Notes not directly corresponding to the
    DoD Agency-Wide financial statement footnotes.

    The FACTS I Notes contain information derived from a compilation of data
    identified in the DoD audited financial statements, footnotes, and required
    supplementary information. As a result, we were unable to verify the
    $137.5 billion reported in FACTS I Note 20, Commitments and Contingencies, to
    the FY 2000 DoD Agency-Wide Financial Statements and supporting information.
    The FACTS I note reports data by business line for unadjudicated claims, other
    contingencies, and other commitments. The DoD Agency-Wide financial
    statement footnote that corresponds to FACTS I Note 20 is Note 16, Commitments
    and Contingencies. It states that no contingent liabilities meet the criteria for
    footnote disclosure. A checklist that includes the reconciliation requirements
    would assist DoD in verifying that the data reported in the FACTS I Notes and in
    the DoD Agency-Wide financial statement footnotes are consistent. The
    reconciliation requirement should identify the FACTS I Note data and the location
    of the corresponding data in the DoD Agency-Wide financial statement, footnotes,
    and other supporting data to ensure FACTS I data are reconciled with DoD
    Agency-Wide financial statements in a more timely manner.




                                       15
Timeliness of Account Groupings Worksheet
    DoD did not perform reconciliations between the FACTS I data and the amounts
    from DoD Agency-Wide financial statements in a timely manner. The Department
    of the Treasury provided a preliminary AGW to use as a tool to reconcile and
    adjust the FACTS I data before the FACTS I reporting system was closed for
    electronic entries. Between February 8 and February 23, the key period for data
    purification designed to ensure a successful outcome of the FACTS I process,
    DoD made only limited adjustments to its FACTS I data submissions. DoD did
    not complete the summarized AGW until March 1, 2001. In previous years, we
    received a completed summarized AGW prior to that date which allowed us to
    initiate our agreed-upon procedures for the final AGW in a more timely manner.
    As a result, the Department of the Treasury had to re-open the FACTS I reporting
    system so DoD could adjust its FACTS I data previously submitted. DoD
    continued to adjust its FACTS I data until March 8, 2001, almost 2 weeks after
    the FACTS I reporting system had been shut down to receive FACTS I data. The
    Department of the Treasury provided a revised summarized AGW and FACTS I
    Notes to DoD on March 9, 2001. The DoD submitted the completed final AGW
    to the Department of the Treasury on March 9, 2001, which was after the
    March 5, 2001, deadline. We also received the completed final AGW on
    March 9, 2001, and performed the agreed-upon procedures for the final AGW
    contained in the U.S. Treasury Financial Manual.

    Additionally, the DoD submission did not meet the U.S. Treasury’s reporting
    requirements. This included both the omission of required data on the
    completed final AGW, as well as DoD submitting the final AGW to the
    Department of the Treasury, the General Accounting Office, and OMB after the
    U.S. Treasury mandated submission requirement. DoD needs to establish and
    initiate control procedures for the DoD FACTS I reconciliation and reporting
    process to ensure compliance with the U.S. Treasury guidance.

Summary
    DoD did not complete the final AGW as required by the U.S. Treasury
    Financial Manual and did not provide the final AGW to the Department of the
    Treasury, the General Accounting Office, and OMB until after the required
    reporting date. The final AGW provided did not identify and describe all the
    differences required by the U.S. Treasury Financial Manual. As a result, DoD
    did not meet the U.S. Treasury reporting requirements and we were not able to
    verify $137.5 billion reported in FACTS I Note 20. DoD must perform
    reconciliations between the FACTS I data and the DoD Agency-Wide financial
    statement, footnotes, and other supporting data in a timely manner. In addition,
    DoD must perform all of the required CFO Procedures included in the
    U.S. Treasury Financial Manual prior to submission of the final AGW. A
    delayed or incomplete DoD FACTS I data submission could negatively impact
    the ability of the Department of the Treasury to prepare and the General
    Accounting Office to audit the FY 2000 Government-Wide Financial
    Statements.


                                       16
Recommendations, Management Comments, and Audit
  Response
    B. We recommend that the Under Secretary of Defense (Comptroller):

           1. Develop and execute a checklist of reconciliation requirements
    between the Federal Agencies’ Centralized Trial-Balance System I Notes and
    published DoD Agency-Wide financial statement, footnotes and other
    supporting data.

           2. Incorporate Federal Agencies’ Centralized Trial-Balance System I
    key dates, included in the U.S. Treasury Financial Manual, in the DoD
    Financial Management Regulation, volume 6B, “Form and Content of the
    Audited Financial Statements.” Also incorporate the following reporting
    requirements:

                   a. Prepare the Account Groupings Worksheet and
    reconciliation of Federal Agencies’ Centralized Trial-Balance System I Notes
    for DoD consolidated statements from the preliminary Account Groupings
    Worksheet and provide to the Inspector General, DoD, within 7 days of
    receipt by DoD of the preliminary Account Groupings Worksheet from the
    Department of the Treasury.

                  b. Prepare the completed final Account Groupings Worksheet
    and reconciliation of Federal Agencies’ Centralized Trial-Balance System I
    Notes for DoD consolidated statements from the final Account Groupings
    Worksheet and provide to the Inspector General, DoD, within 3 days of receipt
    by DoD of the final Account Groupings Worksheet from the Department of the
    Treasury.

    Management Comments. The Deputy Chief Financial Officer, USD(C),
    concurred in principle with all recommendations. The Deputy agreed that a
    checklist of reconciliation requirements between the FACTS I Notes and
    published DoD Agency-Wide financial statement, footnotes, and other
    supporting data would be a beneficial tool and should be developed and
    executed. In addition, he agreed to incorporate FACTS I key dates into the
    DoD Financial Management Regulations. The Deputy also stated that the
    implementation of the recommendations requires a collaborative effort. The
    Deputy, plans to establish a FACTS I workgroup consisting of staff from the
    USD (C) DFAS, and the OIG, DoD, which will develop the checklist and
    identify the necessary key FACTS I dates and processes for inclusion into the
    DoD Financial Management Regulation. The Deputy also believes that the
    assistance of the OIG, DoD, is needed to meet the FACTS I reconciliation and
    reporting requirements and timelines.




                                      17
Audit Response. The Deputy Chief Financial Officer, Under Secretary of
Defense (Comptroller) comments are responsive. The U.S. Treasury Financial
Manual segregates the responsibilities of the FACTS I process to establish
controls over the reporting process. Thus, the execution of the FACTS I
reconciliation and reporting process is the responsibility of the Chief Financial
Officer, not the responsibility of the OIG, DoD. The OIG, DoD, is responsible
for verifying the accuracy of the DoD FACTS I submission. The OIG, DoD, is
willing to assist USD(C) in developing the FACTS I checklist, updating the
DoD Financial Management Regulation and reconciling the Account Groupings
Worksheet and FACTS I Notes; however, USD(C) is ultimately responsible for
ensuring that the FACTS I requirements are performed timely.




                                   18
Appendix A. Audit Process

Scope
    Work Performed. We reviewed $3.9 trillion of the $4.4 trillion department-
    level accounting entries that DFAS processed. The department-level accounting
    entries adjusted financial data used to prepare the DoD Component financial
    reports and financial statements for FY 2000. We reviewed guidance requiring
    or resulting in department-level accounting entries in addition to guidance on the
    documentation necessary to support the entries. We developed categories for
    use in classifying the department-level accounting entries that DFAS processed
    and identified the type and scope of department-level accounting entries for
    FY 2000. We reviewed the department-level accounting entries to determine
    whether they were adequately supported, maintained adequate audit trails, and
    were in compliance with generally accepted accounting principles. We
    performed this audit with the assistance of the Army Audit Agency who
    reviewed accounting entries for the U.S. Army Corps of Engineers and a
    portion of the Army Working Capital Fund financial statement compilation
    process.

    We compared information in the summarized FACTS I data to the FY 2000
    DoD Agency-Wide Financial Statements. Specifically, we compared the
    amounts for each line item included in the FY 2000 DoD Agency-Wide Balance
    Sheet and Statement of Changes in Net Position to the related amounts on the
    completed AGW account balances from the FACTS I ATBs. We also compared
    the gross cost and the exchange revenue on the FACTS I Statement of Net Cost
    AGW with the FY 2000 DoD Agency-Wide Statement of Net Cost program cost
    and earned revenue. We compared the data in the FACTS I Notes report to
    footnote or other disclosures in the FY 2000 DoD Agency-Wide Financial
    Statements Footnotes and other supporting documentation.

    DoD-Wide Corporate-Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following goal, subordinate performance goal, and
    performance measures.

           • FY 2001 DoD Corporate-Level Goal 2: Prepare now for an uncertain
              future by pursuing a focused modernization effort that maintains U.S.
              qualitative superiority in key warfighting capabilities. Transform the
              force by exploiting the Revolution in Military Affairs, and reengineer
              the Department to achieve a 21st century infrastructure. (01-DoD-
              02)
           • FY 2001 Subordinate Performance Goal 2.5: Improve DoD
              financial and information management. (01-DoD-2.5)



                                        19
           • FY 2001 Performance Measure 2.5.2: Achieve unqualified opinions
              on financial statements. (01-DoD-2.5.2)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

           • Financial Management Functional Area. Objective: Reengineer
              DoD business practices. Goal: Standardize, reduce, clarify, and
              reissue financial management policies. (FM-4.1)
           • Financial Management Functional Area. Objective: Strengthen
              internal controls. Goal: Improve compliance with Federal
              Managers’ Financial Integrity Act. (FM-5.3)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Financial Management high-risk area.

Methodology
    Computer-Processed Data. We could not rely on the computer-processed data
    used to prepare the DoD Agency-Wide financial statements for FY 2000. DoD
    financial management systems were unreliable; therefore, the financial statements
    were unauditable. DoD has candidly addressed deficiencies in its financial
    management systems in the DoD Components’ Annual Statement of Assurance,
    the Financial Management Improvement Plan, and the DoD management
    representation letter for FY 2000. Unreliable computer-processed data were used
    in preparing the financial statements and this report because they were the only
    financial data available. We continue to review the adequacy of existing and
    proposed financial management systems.

    Audit Type, Dates, and Standards. We performed this financial-related audit
    from October 2000 through April 2001 in accordance with generally accepted
    Government auditing standards except that we were unable to obtain an opinion
    on our system of quality control. The most recent external quality control
    review was withdrawn on March 15, 2001, and we will undergo a new review.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD, and the Department of the Treasury. Further details
    are available on request.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26,
    1996, and DoD Instruction 5010.40, “Management Control (MC) Program
    Procedures,” August 28, 1996, require DoD organizations to implement a


                                       20
    comprehensive system of management controls that provides reasonable
    assurance that programs are operating as intended and evaluates the adequacy of
    the controls.

    Scope of the Review of the Management Control Program. We reviewed
    management controls over DFAS processes and procedures for recording
    department-level accounting entries into the financial data used to compile the
    DoD Component and the DoD Agency-Wide financial statements for FY 2000.
    We also reviewed management controls over DoD processes to populate the
    AGW and report differences on the AGW for FACTS I verification.

    Adequacy of Management Controls. We identified material management
    control weaknesses as defined in DoD Instruction 5010.40 in the FY 2000 DoD
    Agency-wide Financial Statements compilation process. DoD had not
    implemented management controls to ensure that all department-level accounting
    entries were adequately supported. In Inspector General, DoD,
    Report No. D-2000-179, “Department-Level Accounting Entries for FY 1999,”
    August 18, 2000, we made a recommendation to correct the material weakness
    identified in finding A on department-level accounting entries. However, the
    USD(C) has not implemented our recommendation and the management control
    weakness remains. The details and results of the management control reviews at
    DFAS Cleveland, DFAS Denver, and DFAS Indianapolis were addressed
    separately in the reports on the financial statement compilation process for the
    respective DFAS center. Further, DoD had not implemented management
    controls to ensure compliance with all U.S. Treasury FACTS I reporting
    requirements. DoD had not established procedures to effectively and timely
    reconcile U.S. Treasury data with DoD Agency-Wide financial statements,
    footnotes, and other supporting data. The recommendations in finding B will
    improve the controls over the reporting and verification of FACTS I data. A
    copy of this report will be provided to the senior official responsible for
    management controls at DFAS.

    Adequacy of Management’s Self-Evaluation. DFAS reported the general
    ledger and financial reporting as a material weakness attributable to its control
    environment, accounting and related systems, and control procedures.
    However, the department-level accounting entries material weakness previously
    identified in Inspector General, DoD, Report No. D-2000-179, “Department-
    Level Accounting Entries for FY 1999,” August 18, 2000, has not been
    corrected or specifically addressed in the Annual Statement of Assurance.
    Further, the FACTS I reporting material weakness was not identified by DFAS.

Prior Coverage
    The General Accounting Office and the Inspector General, DoD, have
    conducted multiple reviews related to financial statement issues. General
    Accounting Office reports can be accessed on the Internet at
    http://www.gao.gov. Inspector General, DoD, reports can be accessed on the
    Internet at http://www.dodig.osd.mil/audit/reports.



                                       21
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




                                           22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         23
Audit Team Members
The Finance and Accounting Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

Paul J. Granetto
Richard B. Bird
Cindi M. Miller
N. Dale Gray
Cheri D. Givan
Suellen R. Brittingham
Andrew D. Gum
Mark R. Gott
Ryan N. Pike
Lisa C. Rose-Pressley
